Via Messenger

January 17, 2020

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: United States, ex rel. Laurence Schneider v.
JPMorgan Chase Bank, Nat’l Ass’n, et al., No. 19-678
Dear Mr. Harris:
We represent Respondents JPMorgan Chase Bank, National Association, JP
Morgan Chase & Co., and Chase Home Finance, LLC1 in the above-captioned case.
The petition for a writ of certiorari in this case was filed on November 20, 2019, and
placed on the docket on November 26, 2019. Respondents’ brief in opposition is due,
after one extension, on January 27, 2020.
On January 16, 2020, the United States filed a request for an extension of time
to and including March 4, 2020, within which to file a response. Pursuant to Rule
30.4 of the Rules of this Court, we respectfully request the same extension of time—
to and including March 4, 2020, within which to file a response. The extension is
necessary in light of the work schedules of counsel and to ensure that all respondents
have the same filing deadline.
Counsel for petitioner consents to this further extension.
Sincerely,
/s/ Mark W. Mosier
Mark W. Mosier
1 Chase

Home Finance LLC merged into JPMorgan Chase Bank, N.A., in 2011 and
no longer exists as a separate entity.

